ORIGINAL
jf*:

^

a

NO.

£

!

■V

'

if

j.

a

Supreme Court, U.S.
FILED

JUL 1 5 2021
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

RODNEY DALE HOOD-PETITIONER
\

VV

VS.

1

MATTHEW POSTON-RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

TEXAS COURT OF CRIMINAL APPEALS

PETITION FOR WRIT OF CERTIORARI

RODNEY DALE HOOD #1659266
PRO SE
JESTER III UNIT
3 JESTER RD
RICHMOND, TEXAS 77406

QUESTIONS PRESENTED
v

1. Wether the current Due Process standard for interpreting the obligations of
the parties in plea agreements Is to broad?
2. Are the States free to change the standard or manner in which the obligations
of the parties are determined In plea agreements to the point that shall no
longer means shall and no, no longer means no?
3. Did the State breach the plea agreement?
Sh

4. Can a court use admittedly fraudulent documents during the course of deciding
what judgment to enter and still render a valid judgment?

LIST OF PARTIES
Matthew Poston
Liberty, County Attorney
1923 Sam Houston, St. Suit 202
Liberty, Texas 77575
State Prosecuting Attorney
Stacy Soula
209 W. 14th St. Rm 202
Austin, Texas 78701
Rodney Dale Hood #1659266-pro se
Jester III Unit
3 Jester Rd.
Richmond, Texas 77406

i

RELATED CASES
There are no related cases. No opinions in this case ware ordered to be
published. All opinions that petitioner request to be reviewed ars attached.
-

■

ii

TABLE OF CONTENTS
i

QUESTIONS PRESENTED
LIST OF PARTIES

11

TABLE OF CONTENTS

111

TABLE OF AUTHORITIES CITED

iv-v

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISION INVOLVED

3
4-6

STATEMENT OF CASE
REASONS FOR GRANTING THE WRIT

6-17
17-18

CONCLUSION
INDEX OF APPENDICES
APPENDIX A:

DECISION OF THE NINTH DISTRICT COURT OF APPEALS.

APPENDIX B:

DECISION OF THE COUNTY COURT.

APPENDIX C

DECISION OF THE STATE COURT OF CRIMINAL APPEALS.

APPENDIX D

A COPY OF THE 1979 DWI PLEA AGREEMENT, FOR UNADJUDICATED PROBATION.

APPENDIX E

A COPY OF THE 1988 DWI PLEA AGREEMENT, FOR UNADJDICATED PROBATION.

APPENDIX F

A COPY OF A 2021 PLEA AGREEMENT, FOR UNADJUDICAED PROBATION.

APPENDIX G:

A COPY OF A PLEA AGREEMENT, IN WHICH THE FINDING OF GUILT IS

FINAL.
APPENDIX H: THE DOCUMENT USED TO ORIGINALLY APPOINT ATTORNEY MATTHEW GOTT TO
REPRESENT PETITIONER DURING ALL THE V.A.C.C.PROC. 11.09 PROCEEDINGS.
APPENDIX I: THE DOCUMENT USED TO REAPPOINT GOTT FOR APPEAL.
APPENDIX J: A COPY THE POTATION OF THE STATE BRIEF IN WHICH THE STATE. CONCEDED
THAT THE COURT ILLEGALLY APPOINTED COUNSEL BOTH TIMES.
APPENDIX K: MOTION TO HAVE FRAUDULENT RECORD REMOVED FROM APPELLATE RECORD.
APPENDIX L: DENIAL OF MOTION TO REMOVE FRAUDULENT DOCUMENT.

Ill

4.

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

Blackladgs v. Allison.
97 S.Ct. 1621 (1970)

:*>

8

Cox v. Upjohn Co •9
913 S.W.2d 225 (Tex.App.-Dallas 1995)

16

Estate of Stonecioher Butts.
591 S.W.2d 806 (Tex. 1979) ..............

16-17

Meeker v. Chaney.
105 S.Ct. 1649 (1985)
Hewit v. Helms.
103 S.Ct. 864

8

(1983)

11

I.N.S. v. St. Cry.
121 S.Ct. 2271 (2001)

7

Tn Ra Rogers.
513 F.3d 212 (5th Cir. 2008)

17

In Re Trautam.
456 F.3d 366 (5th Cir. 2007)

15

Ex Parte Reyna.
707 S.W.2d 110

12

(Tex.Crim. App. 1986)

Lamie v. United States Trustee.
124 S.Ct. 1023 (2004)

17

Morris v. House.
32 Tex. 492 (1870)

17

Ricketts v. Adamson.
107 S.Ct. 2680 (1987)

9

Santobello v. New York,
92 s7ctT495 (1972)

8,9

Simon and Schuster v. Crime Victims Bd is
112 C.Ct. 501 (1991)

17

The State of Texas v. Vasilas.
198 $.W.3d 480 (Tex.App.-5th 2006)

16 '

U.S. v. Brown.
328 F.3d 787

(5th Cir. 2003)

10,12

iv

IJ.S. CONSTITUTION:

3,8,10

14th
FEDERAL STATUTES:

2

28 IJ.S.C. §1257(a)
TEXAS CODE OF CRIMINAL PROCEDURES:

3,13,14

11.09
TEXAS PENAL CODES
§37.10 ....
§37.10(a)(5)

3,16
3,15-17

>?<

TEXAS REVISED CIVIL STATUTE:

67011-1

’•f

i

v

12

r
i

*
f

t

i-

* *<

i

/■

*

*

*«

♦ % * +

j

*• r*
4

\
T V

t

*

»*

*

t*8

n

i
'p •

*

?

T •”*

1

t e.

*

* v 9

*

*

>4 *

*

4

1

* # 1.

*

•*

S'

*
9

•*

A *

**

»
. •?

* i

1,

.*

*

t r «

r

v

* \‘

IT

■s

« ?

*' »

4 0 + * •. #

*• .1

TN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the
judgments below.
The opinion of the Court of Criminal Appeals in Austin, Texas is simply a
white card stating that the Petitioner For Discretionary Review was refused on
5-19-21. This is being included to verify that Petitioner full exhausted state
remedies by presenting the questions presented herein to the State's highest
■j

court. This card is attached as appendix C. This refusal is unpublished.
The Ninth Court of Appeals 1n Beaumont, Texas opinion is attached as
appendix A. This is one of the two opinions petitioner respectfully seeks this
Honorable Court to review. Even though it is a non-published opinion, It is a
written opinion.
The written opinion of the Liberty County Court is designated as "Findings
of Fact And Conclusions of Law." This opinion is a non-published opinion,-which
1s attached as appendix B. This Is the original opinion in this case.

1

JURISDICTION
The date on which the highest stats court decided my case was ON 5-19-21.
A copy of that decision appears as appendix C.
Mo motion for rehearing was filed.
No extension of time was f11

to f11a the petition writ of certiorari was
sought a,s such none could have been granted.
The jurisdiction of this Court is invoked under 28 U.S.C. §1257(e).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Fourteenth Amendment of the United States Constitution.
The Texas State Penal Cods §37.10 and §37.10(a)(5).

i

3
?

/J
STATEMENT OF CASE
In

1979

petitioner

was

arrested for a misdemeanor

DwI. On

5-21-79

petitioner entered into a plea agreement with the stats, that if he would plead
guilty the state would recommend that he be sentenced to 30 days in the county
jail. That the sentence would be suspended and he would be placed on one year
unadjudicated probation for one year. This plea agreement specifically stated
that the finding of guilty shall not be final,
rendered,

as

such

that

no

judgment will be

if petitioner successfully completed this probation, no

judgment or finding of guilty would

be

entered

into petitioner's criminal

record. See appendix D.
On 9-5-1987 plaintiff was again arrested for DWI, petitioner hired attorney
C.T. night to represent him. On 2-5-1988 Petitioner, his attorney and the county
attorney Michael A. Stafford entered into the same identical plea agreement as
above,

with the exception that petitioner was fined $l,500.oo dollars

and

sentenced to one year in the county jail and petitioner would be placed on two
years

probation.

This

agreement

was approved by

the judge L.J. Krueger,

petitioner, his attorney and county attorney Stafford and the judge signed the
plea agreement. All parties agreed that the finding of guilt and the sentence of
one

year would be suspended and petitioner would be placed on unadjudicated

probation. That the finding of guilty shall not be final, that no judgment will
be rendered. Therefore, if petitioner successfully completed this probation, no
judgment or finding

of

guilty

would be entered into petitioner's criminal

record. Petitioner successfully completed this probation on 2-5-1990. Therefore,
in accordance to the obligations of the plea agreement, no finding of guilt or a
into

final judgment was to be entered

petitioner's criminal record. See

appendix E.
Later in 1995 this misdemeanor was used as an enhancement, in, 1995, 1996

4

to sentence petitioner to 5 years in prison, 2003 to sentence petitioner to 6
years in prison. Each time it was used as an enhancement it violated the terms
of the plea agreement. On 8-13-i^Patitionar filed his original V.A.C.C.P. 11.09
directly attacking, this misdemeanor conviction. On 9-5-17 petitioner filed an
amended 11.09 supra, alleging that the his sentence is void, the Stats broke the
plea agreement, and petitioner received ineffective assistance of counsel. On
duns 27, 2019 the county judge Thomas Chambers decided based upon petitioner's
non-existing affidavit of indigence and non-existing motion for the appointment
of counsel. The judge appointed attorney Matthew Gott to represent petitioner in
all 11.09 supra proceedings. See appendix H.
There

were

petitioner was not

three

separate recorded 11.09 supra hearings,

each

time

notified nor allowed to attend, Gott waived petitioner's

right to appear. During these three hearings not

one

of

the three issues

petitioner raised in his amended 11.09 wera addressed or even spoken about. Not
surprisingly petitioner was denied any relief whatsoever.
The only way petitioner became aware that tna Liberty County Court had
taken any action on his 11.09 was when he received legal mail from LibertyCounty and enclosed was a copy of the Judge's findings of facts and conclusions
of law. Petitioner quickly filed his notice of

appeal,

informing

both the

Liberty County and the Ninth District Court of Appeal's in Beaumont, Texas that
he wished arid intended to file an

appeal,

appealing

the Liberty County's

opinion.
Petitioner quickly filed his original brief. Within a day

or two after

petitioner received a brief, filed by Gott, which was an Anders brief. Shortly
after this petitioner received only the transcription of one hearing and other
portions of the clerk's records. This is when petitioner discovered that Gott
had twice been illegally appointed

to represent him, once during the 11.09

proceedings. See appendix H. Than again for appeal. Appendix I.

5

Petitioner quickly prepared and filed a supplemental brief bring it to the
9tn Dist. Ct. App’s attention that all the proceedings dealing with the 11.09
are void as a matter of law due to the fact attorney

Gott

was

illegally

appointed, and appeared at all three habeas hearings. Therefore, each time he
signed his name on any document, waived petitioner's right to appear at the
hearing it was void. Specifically that petitioner never filed an affidavit of
indigency or provided the required certified 6 months prison trust fund account
print out certifying the monthly balance of his

trust nor did he file the

required motion for appointment of counsel each of which judge Chambers twice
based his decision to appoint counsel on.
When the state filed their brief they admitted that the petitioner never
filed a motion for tha appointment of counsel. Therefore, the twice appointment
of Gott was illegal. Petitioner filed his response' brief and a supplement brief
strenuously

objecting

and urging the 9th Dist. Ct. to

declare

ail

11.09

proceedings

void. The 9th Dist Ct. App’s refused to do so and affirmed the

judgment of tha trial court.
Before petitioner filed his Petition For Discretionary Review to the Court
of Criminal Appeals he filed a motoin to have these two documents stricken from
the record. That all

proceedings were based upon the admitted fraudulent

appointment of counsel, and his fraudulent waiver of petitioner's right to be
present. That

due

to

the

proceedings. Therefore,- all

fact

that

habeas

Gott

proceedings

appeared at all three habeas
were

void

as

a matter of

law. That the documents used to appoint him are criminal instruments pursuant to
Texas Panel Code

§37.10(a)(5).

Therefore

they should be stricken from the

record. See appendix K. This motion was denied. Appendix L. Later the PDR was
refused. Appendix C.
REASONS FOR GRANTING THE PETITION

6

The four issues presented herein
contracts

Includes

the way pia agreement e.g.

are written, enforced and Interpreted by the appeal

courts. The

Supreme Court's answer to these questions will dramatically impact 85% of all
criminal and civil cases alike In the entire United States of America. The first
two questions the Supreme Court is being asked to answer will decide the correct
standard that is to be used when interpreting the obligations of the parties in
plea agreements (contracts). Also whether this method 'can be changed at the whim
of the appeal courts.
The third question will determine if the written plea agreement promised
petitioner if he would plea guilty the state would place him on unadjudicated
probation. If

he successfully completed this probation the finding of guilt

would not be entered into the record. Also that no final judgement would be
entered Into his criminal record. If does did the state violate the terms of
this agreement when they used this DWI as a final conviction, three different
times to enhance another DWI.
The answer to the fourth question will effect 100% of all criminal and
civil judgments In state and federal courts, in which a judgement is depended
upon a false of fraudulent document,

Plaintiff will now present the first two

national questions.
1. Whether the current Due Process standard for interpreting the obligations
of the parties is to board.
2. If the State promises a defendant unadjudicated probation, when due to the
change in the law it 1s no longer legally possible

to

offer unadjudicated

probation. Are the appeal courts free to change the interpretation of the plea
agreement to keep from deciding the State breached the plea agreement?
This court has thoroughly explained the vital role that plea agreements and
contracts play In both the state and federal
S.ct. 2271, 2291 n.47 (2001):

7

courts. I.N.S. y. St. Cry.

121

"If every criminal charge was subjected to a full-scale trial, the State
and the Federal Government would need to multiply by many times the
number of judges and court facilities." Santobello v. New York. 404 U.S.
257, 260, 92 S.Ct. 495, 30 L.Ed.2d 427 (1971)."
If this Honorable court fails to set a standard that all courts must abide
by, when interpreting the obligations of the parties in contracts (plea
agreements) but they Instead continue to allow the Individual appeal courts to
used their own unique personal interpretation of the meaning of due process to
determine the obligations of the parties, to ensure the state did not breach the
plea agreement. Without a more detailed

solid

standard, defendants will no

longer have faith in state and federal prosecutors keeping the agreement they
used to secure their
understanding

guilty plea* This is because the defendants reasonable

of ' the

agreement

will

be

subjected

to

appeal

court

reinterpretation in favor of the state. Parties in civil cases will be unwilling
to settle matters out-of-court because any agreement will be subjected a broad
reintsrpret.af.1on

of

the

current

due

process

standard to determine

the

obligations of. the parties by the appeal courts.
Therefore, the present broad guiding due process standard for interpreting
plea agreements and other contracts, lacks a specific standard of interpreting
the terms and obligations of the parties in contracts. This lack of a specific
guiding standard, also effects the interpretation of civil contracts. Therefore,
this lack of a. specific Interpretation of contracts (plea agreements) effects
entire justice system. Therefore, it risks It court system collapsing in upon
itself. Id at 2291 rs. 47, See also Heckler
(1985)("Nor

do

prosecutors

va Chaney.

105

S.Ct. 1649,1663

have discretion to induce guilty pleas through

promises that are not kept. Blackledoe v. Allison. 431 U.S. 63, 97 S.C't. 1621,
52 L.Ed.2d 136 (1970); Santobello v. New York. 404 U.S. 257, 262, 92 S.Ct, 495,
498, 30 L.Ed.2d 427 (1971))“.
The Supreme court has further decided that the U.S. Constitutional Duo
8

J

Process guides all courts in evaluating whether

a state prosecutor fulfills

their obligation in a plea agreement. Ricketts v. Adamson, 107 S.Ct. 2680
(1987)("The requirements of due process have guided this court In evaluating the
promises and conduct of state prosecutors in securing a guilt plea. Santobello
V. New York. 404 U.S. 257, 92 S.Ct. 495, 30 L.E"d.2d 427 (1971)". There is no
reason to Ignore those requirements here.")".

The

current

standard of due

process is to op*n to interpretation therefore, the appeal courts presently have
to much lead way when interpreting the parties obligations in contracts.
Texas courts have taken advantage of this lack of specific standard by
intentionally broadly Interpreted the present due process standard to create
their own standard for the purpose of ensuring, when state prosecutors promises
a defendant that if they would plea guilty, there sentence would be probated. If
they successful complete there unjudicated probation the plea of guilty would
not be final and that no final judgment for this DWI would be entered into there
criminal

record. As

stated

above

petitioner

successfully completed

this

probation on 2-5-1990. The state failed to fulfill their obligation when they
used this DWI as a final conviction to enhance another DWI in 1995, 1996 and
2003. Duo to the broad interpretation of due process all the below listed courts
were able to base there decision upon the change in the law, not a change in the
plea agreement or the obligation of the state. Tha trial court appendix B. Ninth
Dist-. Ct. App's appendix A, Ct.Crirn.App's appendix C.
Dus to the current due process standard which is subjected to such a broad
Interpretation the trial and appeal courts were allowed to decided that in the
agreement which states that the guilty plea shall not be final, actually means
the guilty plea shall be final. That the agreement .stating that no judgment will
be entered actually means that the judgment is finally and that it will be
entered into petitioner's criminal record. Therefore, when It was used It for

9

enhancements that was perfectly legal, and the .state did not breach its plea
agreement, as decided by the trial court. Appendix B. Which was upheld by both
appeal courts. Appendix A,C.
:wN

To allow this to go uncorrected will allow state and federal prosecutors to
make promises to defendants to induce them to plea guilty with no intention of
keeping

the agreement and depend upon the appeal courts to reinterpret the

agreement in such a manner as to ensure the state did not breach the agreement.
If all state and federal courts in America are left with the ability to broadly
interpret the current due process standard, as to be able to at will to set
their own individual standard thereby, changing the obligations of the state so
the

state court could refuse to enforce the plea agreements as the parties

reasonably understood them, at the time the agreement was made.
This will effectively destroy the effectiveness of plea agreements which
will In turn drastically increase the amount of civil and criminal cases that
are settled by a

full-scaled jury trial. For these reasons a certiorari be

issued to answer and decide these first two questions.
Petitioner will next present his question which has national importance as
it

concerns

four separate written plea agreement, which includes mandatory

language setting forth the obligations of the petitioner and the state with
crystal

clarity. The third question is whether the state fulfilled their

obligations as set forth in the plea agreement?
The Fifth Circuit has set forth the legal, standard that is used to review,
to determine whether the state breached the plea agreement. U.S. v. Brown, 328
F.3d 787, 790 (5th Cir. 2003)("To assess whether a plea agreements has been
violated, this [Clourt considers whether the government's conduct is consistent
with the defendant's reasonable understanding of the agreement.").
In petitioner extreme efforts to clarify and simplify the obligations of

10

4

the parties and petitioner's reasonable understanding of the obligations of the
parties,

petitioner

has

included

four

separate

plea

agreement

contracts. Appendix D-G. Each agreement the basis of which Is that: "The finding
of guilt shall not be final, that no judgment will be rendered or entered Into
petitioner's criminal history. The big incentive for defendants to enter into
one of these plea

agreements

Is,

that

if they successfully complete the

probation there criminal record is wiped clean.
In 1979 Petitioner was arrested for DWI, hs

later pled guilty and was

placed on unadjudicated probation. A copy of this plea agreement is attached as
appendix D. In September 1987 petitioner was again arrested for DWI. On February
5,

1988

Petitioner

appendix £. Petitioner

again entered into this exact same plea agreement. See
plead

guilty

sentenced to the county jail but this

sentence was probated. This agreement specifically stated that: "The finding of
guilty herein shall not be final, that no judgment be rendered thereon, and that
Defendant be, and hereby placed on probation." These two plea agreements are a
mirror image of each other. Each includes the same mandatory

language which

mandates the same legal obligation.
The U.S. Supreme Court decided when dealing with mandatory language, it
Imposes mandatory duty(ies) on the parties involved. Itewit v. Helms.
S.Ct. 864, 872 (1983)("It used language of unmistakable mandatory

103

character,

requiring that certain procedures "shall," "will," or “must" be employed."). Dus
to the fact the plea agreement used mandatory language; "The finding of guilt
shall not be final." The State had a mandatory obligation to not enter a finding
of guilt for this DWI. Therefore, the State equally had a mandatory duty to
"not" enter a final judgment for this DWI. Due to the fact the state used this
DWI as a final judgment to enhance petitioner's DWI in 1995, 1996 and 2003 they
violated the mandatory terms of this plea agreement.

11

The trial court relied upon the fact that the DWI law changed on January
1984, Article 67011-1 Texas Revised Civil

and Criminal

Statutes governed

judgments adjudicating Driving While Intoxicated offenses. "For the purposes of
this article, a conviction for an offense that occurs on or after January 1,
1984, is a final conviction, whether or not the sentence for the conviction is
probated."
The obligations cf the parties are not governed by the change 1n the law
they are governed by the parties reasonable understanding of the terms of the
agreement when the parties entered into the agreement, and all parties signed
the agreement.

11.5. v. Brown, supra at 790. When a state enters Into a plea

agreement that can not be enforceable do a change 1n the law, the state equally
violates the terms of the agreement. In this case the petitioner 1s entitled to
retract his plea and be benched back to answer the charge. Ex Parte Revna. 707
S.W.2ti 110 (Tex.Crlm.App. 1986)("The court Issued

a

post-conviction writ of

habeas corpus because applicant's plea bargain was unenforce and he was
therefore entitled to withdraw his plea. The case was remanded in order for
applicant to answer to the indictment.").
These same plea agreement forms 1n which the state Is offering defendants
unadjudicated probation as an incentive to plea guilty, are still being used by
the state of Texas and specifically Liberty County In 2021. A copy of which Is
attached as appendix F. When the state does not intend that the finding of guilt
and judgment-not be final .the states use a plea agreement which clearly states
the finding of guilt Is final and a final judgment will be entered Into the
defendants record 1s appendix G.
The facts are crystal clear in 1988 the petitioner his attorney and the
county prosecutor entered into a plea agreement which specifically stated that:
"The finding of guilty herein shall not be final, that no judgment be rendered

12

thereon, and that Defendant be, and hereby placed on probation." See appendix
E. When the state used the 1987 DWI as a final conviction as an enhancement in
1995, 1996, and 2003, the state violated the terms of this agreement. For these
reasons a certiorari should be Issued to answer the question as to whether the
state violated the terms of the plea agreement.
Petitioner's last question he seeks this Honorable

Court to answer has

national Importance. The question Is: Can a court used admittedly fraudulent
documents during the course of deciding what judgment to enter and still render
a valid judgment?
This

question

mixed

with

petitioner's extremely rare set

of

facts

demonstrates just how far Texas court's have gone In efforts to deny defendants
any relief whatsoever, when their convictions are based upon plea agreements. Due
to the facts that 85% or more, criminal cases are the results of plea agreements.
The overall administration of plea agreements are of national importance. In
petitioner's case the following facts are undisputed.
Petitioner filed a 11.09 supra on August 13, 2012 no action was taken. On
9-5-17 petitioner filed an amended 11.09 supra. In June 2019 county trial judge
Thomas

Chambers took it upon himself to appoint attorney Matthew

Gott

to

represent petitioner in all the 11.09 proceedings. See appendix H. This document
verifies that the judge relied upon petitioner's
request

affidavit of Indigency and

for court appointed attorney. There ware three separate 11.09 supra

hearings held at which attorney Gott appeared on behalf of petitioner. Due to'
this appointment petitioner was not allowed to be at either of

these three

fivldentary hearings. It was the results of these three evidentary hearings that
judge Chambers based his determination that It

was

his recommendation that

petitioner was not entitled to any relief whatsoever. See appendix B.
Petitioner was never notified of any of these hearings before they were

13

held. Petitioner had no Ideal that the court had appointed him an attorney or
held any hearing. It was not until after the hearings were over and the court
*<•

had already made Its Finding of Fact And Conclusion of Law on 4-1-2020 that
petitioner became aware that the county court

had

taken any action on his

11.09, by receiving a copy of judge Chambers Fact Finfings And Conclusions of Law
denying petitioner any relief whatsoever.
Petitioner quickly filed notice of appeal with both the county court and
the Ninth Court of Appeals In Beaumont, Texas. Petitioner then quickly prepared
his appeal and filed It with the Ninth Ct. of Appeals. Shortly

after

this

petitioner was astounded when he was called for legal mail and he received a
Anders brief filed by attorney Matthew Gott. After

this the 9th Ct. App.'s

ordered the District clerk of Liberty County to forward ail the trial records to
petitioner. Upon receipt of only the transcription of "one" hearing record, and the
clerk's records. Petitioner discovered two things;

1). That the court had

Illegally

appointed Gott twice to represent him, based upon a

affidavit

of

Indigencey

and

a

motion

requesting

a

non-existing

court

appointed

counsel. 2). Also that there were other evidentiary hearings that had been held,
that the Liberty County Clerk not had transcribed and sent to petitioner all the
records that were ordered by the court to be sent to him.
Petitioner quickly did two things; 1). He filed a supplemental brief bring
to the court's attention that petitioner was not indigent due to the fact he had
ten thousand dollars In his Inmate Trust Fund at that time. Also that he had
never filed a motion seeking the court to appoint him counsel, as such both
times judge Chambers appointed Gott was illegal. Appendix H,I. Therefore, the
appointment of counsel was

illegal

and

all proceedings he appeared he was

Illegally representing''plaintiff, as such, each one of them were void as a matter
of law. Also petitioner sought an'order from **»e gtb ct. of App.'s ordering the
District clerks to have the rest of the evidentiary hearing records transcribed
and sent to him.
14

records. Once the State filed their brief they openly admitted that Gott was
twice illegally appointed. This is true due to the fact that petitioner "never*
filed a motion for the court to appoint counsel. See appendix J. Petitioner then
V

fll <sd several separate motions seeking that the court to remove these documents
from the appellate record. All motions were denied.
Once the 9th Dlst. Ct. App's denied all relief, petitioner filed a well
researched and well supported motion to the Court of Criminal Appeals to have
main fraudulent document removed from the record. See appendix K. This motion
was denied. Appendix L.
This twice appointing counsel were and are known false governmental records
that were mads by the judge Chambers with intent that they be used to defraud
and harm petitioner by preventing him from being present. The judge himself knew
better than anyone that petitioner never filed neither an affidavit of indigency
or a motion for court appointed counsel.
There can be no doubt whatsoever that these false governmental record was
made and presented knowing It was false. Additionally there 1s no doubt that
this false governmental record has been used to harm and defraud the courts and
petitioner. The law is clear that 1f a governmental record 1s false it MUST be
taken out of the record. The legislature intent is the foremost thing that must
be considered when trying to interpret a statute or law. In Re? Trautam. 456 F.3d
366, 368 (5th Cir. 2007)("In Texas, giving effect to legislative intent is the
cardinal rule. See La Salle Bank Nat'l Ass'n v. Sieutel. 289 F.3d 837, 839 (5th
Cir. 2002)«"). The legislatures Intent
37.10(a)(5)

in the enactment of TEXAS PENAL CODE

was to protect the authenticity, veracity and the Integrity of

government records, also to protect against the perpetration of fraud upon the
court. This legislature Intent was thoroughly and clearly set out in the court's

15

opinion 1n The State of Texas v. Vasil ns. 198 S.W.3d 480, 482-85 (Tex.App.-5th
'i

2006) which states in relevant part that:
"The Texas Court of Criminal Appeals granted discretionary review and
concluded the petitioner for expunction was a 'governmental record'...The
.fourth court alleged appellee made, presented and used a governmental
record, that petition to expunction, when knowledge of its falsity,
intending to defraud and harm the State of - Texas... Therefore, the sole
issue before us is whether the trial court erred in granting the motion
to quash Count IV, which alleged appellate did "with intent to defraud
and harm another, namely the State of [at 483] Texas, make, present, and
use a governmental record, to wit: a petitioner for Expunction of Records
with knowledge of its falsity."
At 484 The elements of proof for section 37.10(a)(5) charged as a stats
jail felony are that (1) a person (2) make,
present,
or uses (3)
governmental record (4) with knowledge of its falsity (5) with the intent
to defraud or harm another. Section 37.10(a)(5) charged as- a felony
requires that
the act be done with the intent to defraud and harm
another...[at 485] Section
37.10(a)(5)
applies to ALL GOVERNMENTAL
RECORDS.1...violations of section 37.10 with intent to defraud and harm
another is a State jail felony and punishment by confinement for 180
days, to two years in a State Jail and a fine of up to $10,000 dollars,
TEX.PEN.CODE. ANN 12.35 (VERNON 2003)...Section 37.10(a)(5) protects the
authenticity, veracity, and Integrity of governmental records BY IMPOSING
CRIMINAL PENALTIES and anyone making, presenting or using a governmental
record the actor knew to be falsa. Section 37.10(a)(5) protects against
the perpetration of fraud upon the court and the miscarriage of justice
that could result from the use of falsified records. Vasllas, 187 S.W.3d
at 492."
Thera can remain no doubt that the judge himself perpetrated fraud upon his
own court. This admitted fraudulent document has been instrumental in allowing
an illegally appointed counsel to attend habeas hearings without being present
or even knowing there were going to be-held. Each appearance is a separate act
of fraud upon the court, an a act of miscarriage of justice. These illegally
conducted hearings

were

then

used to render judge Chambers judgment. This

judgment and the fraudulent hearing records have been relied upon my the Ts*a$
Court of appeals and Court of Criminal Appeals to deny petitioner any relief. It
is a longstanding and well settled law that fraud vitiates whatever it touches
and that any judgment based upon fraud is void as a matter of law, Cox v. MoJohn
Co.. 913 S.W.2d 225, 231 (Tex.App.-Dallas 1995)("Texas Courts have long held
that fraud vitiates whatever it touches

16

Estate

of Stonacloher v. Estate of

*
Kt

•!

Butts, 591 $.W.2d 806, 809 (Tex. 1979) ; Morris v. House.

32

Tex. 492,

495

(1870)“).
When speaking on the legislative Intent the U.S. Supreme Court decided when
the legislative intent is clear the job of the courts are to

ensure it is

carried out. In Ra Rogers. 513 F.3d 212,225 (5th Cir. 2008) citing lamia v.
United States Trustee. 540
(2004)("[W]hen

the

U.S. 526,

statute's

534, 124 S.Ct. 1023, 157 L.Ed.2d 1024

language

is plain, the sole function of tha

courts--at least where the disposition requires by the taxt is not absurd--is to
enforce it according to its terms." Id." The legislative intent

is

plain,

especially known false governmental records are not allowed to EXIST or remain
in the court records. As It now stands the trial judge committed the criminal
violation

of

37.10(a)(5).

Then he rewarded himself by using this criminal

Instrument to enter a judgment to deny petitioner relief. Then he was rewarded
twice

again

once

by

the

9th

Dist. Ct.

App's

and

again

by

the

Tex.Ct.Crim. App's. by affirming his judgment. This rewarding criminals for
ch^ir criminal adventures violates tha principles

decided by this Honorable

Court in their will rsasonsd opinion in Simon and Schuster v. Crime Victims Bd.„
116 L.Ed.2d 467, 502 U.S. 105, 112 S.Ct. 501 (1991) at 501 U.S. 119:
"The State likewise has an undisputed compelling interest in ensuring
that criminal do not profit from their crimes. Like most if not all
States, New York has long recognized the "fundamental equitable
princile," '[n]o one shall be permitted to profit by his own fraud, or
take advantage of his own wrongs, or to found any claim upon his own
iniquity, [unjust, harmful.1. WICKNESS, sinfulness. 2. A grossly immoral
act; sin] • • •
The trial judge has been rewarded two times over for his crimes, wickness
and grossly immoral act of knowingly committing fraud upon his own court. Id. at
501 U.S. 119. Due to th^se undisputed criminal acts of Tex.PEN.CODE 37.10(a)(5),
willful acts of wickness and Immoral acts of committing fraud on his own court
the answer to the fourth questions should be NO!
CONCLUSION

17

Petitioner has presented four questions

ha

seeks to be answered. Each

question has national importance due to the fact they deal with the manner plea
agreements are written*
current

standards

they interpreted by the appeals courts. Whether the

of reviewing them are specific

enough

to

protect

the

defendants reasonable understanding of the terms of the plea agreements. To also
protect them when the state fails to faithfully fulfill their obligations of the
plea'agreement. For these reasons this petition for cetiorarl should be granted.

Respectfully submitted*

u

tes Ir/awi

Rod/My Dale Hood #1659266 pro se
Jesxer III Unit
3 Jester Rd
Richmond* Texas 77406

?

Date: 7-6-21

18

